                TABLE OF CONTENTS

INSPECTOR GENERAL‟S MESSAGE                  i
NCUA AND OFFICE OF INSPECTOR GENERAL
                                            1
 MISSION STATEMENTS
INTRODUCTION                                2

NCUA ORGANIZATIONAL CHART                   3

NCUA HIGHLIGHTS                             5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS   11

LEGISLATIVE HIGHLIGHTS                      12

OFFICE OF THE INSPECTOR GENERAL             15

   AUDIT ACTIVITY                           17

   INVESTIGATIVE ACTIVITY                   23

   LEGISLATIVE AND REGULATORY REVIEWS       26

TABLE I – REPORTS WITH QUESTIONED COSTS     28
TABLE II – REPORTS WITH RECOMMENDATIONS
                                            29
 THAT FUNDS BE PUT TO BETTER USE
TABLE III – SUMMARY OF OIG ACTIVITY         30

INDEX OF REPORTING REQUIREMENTS             31
           INSPECTOR GENERAL'S MESSAGE
                TO THE NCUA BOARD
                AND THE CONGRESS

I am pleased to present the National Credit Union
Administration (NCUA) Office of Inspector General (OIG)
Semiannual Report summarizing activities for the 6-month
period from April 1, 2008, through September 30, 2008.

Over the past 6 months we ensured the completion of
mandated work including the audit of the agency‟s 2007
consolidated financial statement required by the
Government Management Reform Act and the
independent evaluation of NCUA‟s information security
program as required by the Federal Information Security
Management Act (FISMA).

As we enter the next reporting period, the most significant
factor impacting our office is the requirement for us to
perform material loss reviews (MLR) of failed credit unions
regulated and/or insured by NCUA that result in material
losses to the National Credit Union Share Insurance Fund
(NCUSIF). The Federal Credit Union Act, 12 U.S.C.
1790d(j), defines a material loss as (1) exceeding the sum
of $10 million; and (2) an amount equal to 10% of the total
assets of the credit union at the time at which the NCUA
Board initiated assistance or was appointed liquidating
agent.


                             i
We are near completion of a MLR of Huron River Area
Credit Union. Its estimated loss to the NCUSIF is $38.7
million. Moreover, we are scheduled to conduct two
additional MLRs, to be completed in 2009. Even a
moderate increase in credit union failures would trigger an
MLR workload for us that would be beyond our resource
capability. We are coordinating with the other financial
regulatory OIGs who have MLR responsibilities to identify
strategies to address the potential for a significant increase
in workload. Nevertheless, to staff the MLR currently in
progress as well as the additional MLRs currently
scheduled, we have deferred previously planned
discretionary audits of important NCUA programs and
operations. The NCUA Board has expressed its support of
our MLR work and is cognizant of its impact on our ability
to undertake additional audits.

The profound changes that we anticipate in the wake of
the passage of the “Emergency Economic Stabilization Act
of 2008,” may also give rise to areas of known or emerging
risks and vulnerabilities in the agency. Now, more than
ever, we encourage NCUA management to identify areas
for self-assessment and to take corrective measures where
vulnerabilities and weaknesses are identified.

We remain confident that we will continue to receive the
accustomed excellent support and cooperation from the
Board and senior management even as, due to limited
resources and the impact of MLRs, there are issues we
consider significant but do not expect to address in the
next reporting period.




                               William A. DeSarno
                               Inspector General

                              ii
OIG Semiannual Report                                        September 2008




                        THE NCUA MISSION

NCUA‟s charge is to foster the safety and soundness of federally insured
credit unions and to better enable the credit union community to extend
the availability of financial services for provident and productive purposes
to all who seek such service, while recognizing and encouraging credit
unions‟ historical emphasis on extension of financial services to those of
modest means.

The NCUA‟s mission is accomplished by managing the National Credit
Union Share Insurance Fund in an efficient and prudent manner through
an effective supervision program and a regulatory environment that
encourages innovation, flexibility and continued focus on attracting new
members and improving financial service to existing members.




        THE OFFICE OF INSPECTOR GENERAL MISSION

The OIG promotes the economy, efficiency, and effectiveness of NCUA
programs and operations, and detects and deters fraud, waste, and
abuse, thereby supporting the NCUA‟s mission of monitoring and
promoting safe and sound federally insured credit unions.

We accomplish our mission by conducting independent audits,
investigations, and other activities, and by keeping the NCUA Board and
the Congress fully and currently informed of our work.




                                     1
OIG Semiannual Report                                       September 2008




                         INTRODUCTION
The National Credit Union Administration (NCUA) was established as an
independent, federal regulatory agency on March 10, 1970. The agency
is responsible for chartering, examining, supervising, and insuring federal
credit unions. It also insures state-chartered credit unions that have
applied for insurance and have met National Credit Union Share
Insurance requirements. The NCUA is funded by the credit unions it
supervises and insures.        As of June 30, 2008, the NCUA was
supervising and insuring 4,956 federal credit unions and insuring 3,016
state-chartered credit unions, a total of 7,972 institutions.          This
represents a decline of 80 federal and 49 state-chartered institutions
since December 31, 2007, for a total decline of 129 credit unions
nationwide, primarily as a result of mergers.




                     Federally Insured Credit Unions

             10000
              9000
              8000   3593
              7000          3442   3302   3173   3065
              6000
              5000
              4000
              3000   5776   5572   5393   5189   5036
              2000
              1000
                 0                                       FISCUs

                     2003   2004   2005   2006   2007    FCUs


                       Years Ending December 31




                                     2
OIG Semiannual Report                                     September 2008



The NCUA operates under the direction of a Board composed of three
members.     Board members are appointed by the President and
confirmed by the Senate. They serve six-year terms. Terms are
staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union
Administration, including the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Fund.

The NCUA executes its program through its central office in Alexandria,
Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The NCUA also
operates the Asset Management and Assistance Center (AMAC) in
Austin, Texas. Please refer to the NCUA organizational chart below.




                                   3
OIG Semiannual Report                                                           September 2008


The NCUA Board adopted its 2008 budget of $158,631,447 on
November 15, 2007.         The Full-Time Equivalent (FTE) staffing
authorization for 2008 is 965, representing an increase of seven FTEs
from 2007.




                                          NCUA Budget Dollars

                        160
                        158
                        156
            M ILLIONS




                        154
                        152
                        150
                        148
                        146
                        144
                        142
                                 2004      2005   2006    2007         2008


                                        NCUA Authorized Staff



     1000
      900
      800
      700
      600
      500
      400
      300
      200
      100
        0
                          2004          2005      2006          2007          2008




                                                  4
OIG Semiannual Report                                      September 2008


                    NCUA HIGHLIGHTS

  MICHAEL E. FRYZEL SWORN IN AS NCUA CHAIRMAN, APPOINTS
  SARAH D. VEGA CHIEF OF STAFF AND SENIOR POLICY ADVISOR

  On July 29, 2008, Michael E. Fryzel became Chairman of the
  NCUA. Chairman Fryzel‟s experience with credit unions spans
  many years in the public and private sector. He served as
  Director of the Illinois Department of Financial Institutions in the
  1980s, and has represented many credit unions during the
  intervening years practicing law in Chicago. In addition, Mr.
  Fryzel is a 17-year member of the Illinois Governor‟s Board of
  Credit Union Advisors. His NCUA Board term will expire August
  2, 2013.

  Effective September 10, 2008, Chairman Fryzel appointed Sarah
  D. Vega, of Chicago, Illinois, as his Chief of Staff and Senior
  Policy Advisor. Ms. Vega will advise the Chairman on the full
  range of issues before the NCUA and oversee the day-to-day
  management of his office. Ms. Vega comes to NCUA following
  15 years of public service in Illinois, in addition to experience in
  the private practice of law.


  PRESIDENT BUSH SIGNS THE EMERGENCY ECONOMIC STABILIZATION
  ACT

  On October 3, 2008, President Bush signed into law the
  “Emergency Economic Stabilization Act,” which includes
  significant and beneficial legislative changes for credit unions.
  The legislation, combined with the previous week‟s enactment of
  the bill that removed the CLF borrowing cap, provides NCUA
  assistance in mitigating some of the current and potential
  difficulties facing the credit union industry. In addition to the
  highly-publicized increase in share insurance coverage to
  $250,000 through December 31, 2009, the Act includes last
  minute changes recommended by NCUA. Specifically, the final
  version of the Act incorporates language that allows the National
  Credit Union Share Insurance Fund (NCUSIF) insurance level to
                                   5
OIG Semiannual Report                                     September 2008


  be increased while recognizing the unique elements of the Fund
  that make it different from FDIC. The Act also provides for
  NCUA to act in a consultative role with other regulators in
  determining how the Troubled Asset Repurchasing Program
  (TARP) will work. NCUA‟s role in TARP will enable it to have
  input on the rules under which assets are accepted by the
  federal government.


  PRESIDENT BUSH SIGNS INTO LAW CONTINUING RESOLUTION WITH
  INCREASE TO CENTRAL LIQUIDITY FACILITY LENDING LIMIT

  On September 30, 2008, President Bush signed into law the
  Continuing Resolution that contained a provision increasing the
  Central Liquidity Facility‟s (CLF) lending cap from $1.5 billion to
  $41.5 billion. The increase will ease corporate credit union
  liquidity pressures as the CLF now has significantly greater
  lending capacity to make loans to eligible credit unions in lieu of
  credit unions borrowing from their corporate credit union.

  Chairman Fryzel stated that “[t]he careful case that [NCUA] built
  in asking for the authority was based on the concept that I
  wanted to be proactive and preventative, rather than reactive
  during a crisis, and I commend Congress for providing NCUA
  with an additional tool with which to address liquidity needs that
  may develop.”


  NCUA INITIATIVES RESPOND TO MEMBER INSURANCE QUESTIONS

  In late September, NCUA initiated a three-pronged approach to
  ensure that members of federal and most state-chartered credit
  unions are aware their accounts are insured by NCUA and
  backed by the full faith and credit of the U.S. Government.

  The three initiatives that commenced on September 30, 2008,
  included:

          Chairman Michael E. Fryzel‟s assurance to credit union
          CEOs via video that federal insurance remains safe and
          secure. He encouraged CEOs to assuage member
                                  6
OIG Semiannual Report                                     September 2008


         concerns and encouraged use of available tools, such as
         the NCUA‟s electronic Insurance Tool Kit, to help
         members understand their federal insurance protection.
         NCUA‟s distribution of three large posters to each
         federally insured credit union to post in the lobby, as well
         as making the poster available to download for electronic
         use. The vivid red, white, and blue “Uncle Sam” poster is
         designed to ensure members understand “This Credit
         Union Is Federally Insured.”
         A media campaign kick-off with the placement of
         similarly themed “Uncle Sam” advertisements in many of
         the nation‟s major newspapers, to assure credit union
         members and the general public that most credit union
         member accounts are federally insured.


  BOARD MEMBER GIGI HYLAND HOSTS WEBINAR COVERING
  FUNDAMENTALS OF SHARE INSURANCE

  As part of NCUA‟s initiative to ensure that members of federal
  and most state-chartered credit unions are aware their accounts
  are insured by NCUA and backed by the full faith and credit of
  the U.S. Government, on October 7, 2008, NCUA Board Member
  Hyland hosted a webinar, Share Insurance 101, covering the
  fundamentals of share insurance. The webinar drew over 3,300
  participants, and provided a basic review of federal share
  insurance regulations as well as a discussion of available
  resources and operational considerations. An interactive Q&A
  session was an integral part of the presentation.

  Frank Kressman, one of the NCUA attorneys responsible for
  drafting share insurance regulations, and Robert Leonard, an
  insurance expert within the Office of Examination and Insurance,
  participated in the Webinar. They focused their presentations on
  public confidence, public awareness, and “economic challenges.”

  Kressman discussed legal and regulatory requirements,
  including an explanation of coverage on different types of
  accounts and how to structure accounts to gain additional
  coverage. Addressing operational requirements, Leonard

                                 7
OIG Semiannual Report                                    September 2008


  explained the origination, health and stability of the NCUSIF, as
  well as reputation and compliance risks associated with it.


  NCUA ACTIVATES DISASTER ASSISTANCE IN RESPONSE TO
  HURRICANE IKE

  In September 2008, NCUA activated its disaster relief policy to
  assist credit unions and their members affected by Hurricane Ike
  in Texas and Louisiana. President Bush had declared that a
  disaster emergency existed and ordered federal aid to
  supplement state and local response efforts in these states.
  Under its disaster assistance policy, NCUA, where necessary:

      1. Encourages credit unions to make loans with special
         terms and reduced documentation to affected members;
      2. Reschedules routine examinations of affected credit
         unions, if necessary;
      3. Guarantees lines of credit for credit unions through the
         NCUSIF; and
      4. Makes loans to meet the liquidity needs of member
         credit unions through the CLF.

  During disaster conditions, NCUA personnel operate under three
  priorities:

          Determine the safety of credit union staff and operational
          condition of credit unions;
          Provide needed material and technical assistance to
          affected credit unions; and
          Return credit unions to normal operations as quickly as
          possible.

  On September 11, 2008, NCUA issued a public service
  announcement to alert credit union members in the path of
  Hurricane Ike of assistance available to access their funds.




                                  8
OIG Semiannual Report                                      September 2008


  NCUA VICE CHAIRMAN HOOD HOSTS HIS SECOND ANNUAL RISK
  MITIGATION SUMMIT

  On August 7, 2008, NCUA Vice Chairman Rodney E. Hood
  hosted his second annual Risk Mitigation Summit at the Federal
  Reserve Bank of Chicago. The event was filled with leaders
  from government and industry who discussed the latest and
  most effective techniques for risk mitigation.

  Vice Chairman Hood stressed the necessity for NCUA and the
  industry, especially in the current economic climate, to
  proactively address risk mitigation issues.           “Safety and
  soundness and consumer empowerment are closely related
  concepts,” noted Vice Chairman Hood. The Vice Chairman
  reiterated his “core belief that credit unions must have regulatory
  flexibility and empowerment to dynamically manage their
  balance sheet to respond to the challenges of the current
  economic stresses.”

  The summit featured sessions which included a focus on an
  overview of risk management by the Federal Reserve; interest
  and credit; reputation risk; the Community Development
  Financial Institutions Fund; operational risk; and credit union risk
  trends. Vice Chairman Hood encouraged the audience not to
  simply avoid risks, but to manage them effectively in order to
  stimulate economic growth.


  NCUA LIQUIDATES STERLENT AND CAL STATE 9 CREDIT UNIONS;
  PATELCO CREDIT UNION PURCHASES AND ASSUMES CREDIT UNION
  ASSETS

  On July 1, 2008, NCUA liquidated two state chartered California
  credit unions, Sterlent Credit Union of Pleasanton and Cal State
  9 Credit Union of Concord. Patelco Credit Union purchased
  assets and assumed most shares of both institutions.

  In the case of Sterlent Credit Union, the California Department of
  Financial Institutions agreed that the NCUA would serve as
  liquidating agent of Sterlent. Immediately following the issuance
  of the order, NCUA liquidated Sterlent and entered into an
                                   9
OIG Semiannual Report                                      September 2008



  agreement with Patelco to sell certain assets and liabilities of
  Sterlent to Patelco. At the time of liquidation, Sterlent Credit
  Union had approximately $94.6 million in assets. Sterlent was
  established in 1936 as EBTEL Federal Credit Union and became
  a California state chartered credit union in 2002.

  The Cal State 9 liquidation and purchase and assumption by
  Patelco had been announced May 22, 2008, and was completed
  on July 1. Cal State 9 had been operating under NCUA
  conservatorship since November 2007. Chartered in 1948, Cal
  State 9 was originally chartered to serve University of California
  employees. It had assets of $339 million and served nearly
  29,000 members. The NCUA Office of Inspector General will
  conduct a Material Loss Review of Cal State 9 in late 2008 and
  early 2009.

  Members of the two liquidated credit unions experienced no
  interruption of credit union service as their credit unions were
  purchased by Patelco. Patelco will continue operating branches
  of both purchased credit unions, and member accounts in all
  involved credit unions are insured by the NCUSIF.

  Patelco is a state-chartered, federally insured institution that was
  chartered in 1936. It is a full service, $4.1 billion credit union
  with more than 242,000 members primarily located in California.




                                  10
OIG Semiannual Report                                      September 2008


    FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


Credit unions submit quarterly call reports (financial and operational
data) to the NCUA. An NCUA staff assessment of the June 30, 2008,
quarterly call reports submitted by all federally insured credit unions
found that key financial indicators were mixed.

KEY FINANCIAL INDICATORS SHOWING CONCERN

Looking at the June 30, 2008 quarterly statistics for major balance sheet
items and key ratios shows the following for the nation‟s 7,972 federally
insured credit unions: assets grew 6.51 percent; net worth to assets ratio
decreased from 11.43 to 11.04 percent; the loan to share ratio
decreased from 83.32 percent to 80.72 percent; the delinquency ratio
increased from .93 to .97 percent; and credit union return on average
assets decreased from .64 percent to .52 percent.

SAVINGS SHIFTING TO MONEY MARKET ACCOUNTS

Total insured share accounts increased 7.03 percent. Money market
shares increased 13.86%. Regular shares comprise 26.98 percent of
total share accounts; share certificates comprise 32.84 percent; money
market shares comprise 18.70 percent; and share draft accounts
comprise 11.13 percent; and all other share accounts comprise 10.35
percent.

LOANS INCREASED

Loan growth of 3.69 percent resulted in an increase in total loans by
$19.45 billion. Total net loans of $542 billion comprise 68 percent of
credit union assets. Real estate loans increased 11.74 percent. First
mortgage real estate loans are the largest single asset category with
$198.09 billion accounting for 36.25 percent of all loans. Other real
estate loans of $92.84 billion account for 17.0% of all loans. Used car
loans of $92.03 billion were 16.84% of all loans, while new car loans
amounted to $82.15 billion or 15.04% of total loans. Credit card loans
totaled $30.56 billion or 5.59% of total loans and other loans totaled
$50.72 billion for 9.28% of total loans.


                                   11
OIG Semiannual Report                                       September 2008




                LEGISLATIVE HIGHLIGHTS

PRESIDENT BUSH SIGNS INTO LAW “EMERGENCY ECONOMIC STABILIZATION
ACT OF 2008”

On October 3, 2008, President George W. Bush signed into law the
“Emergency Economic Stabilization Act of 2008,” which temporarily
increases federal deposit insurance coverage. The new law amends the
share insurance coverage provided by NCUA through the National Credit
Union Share Insurance Fund and the deposit insurance provided by the
Federal Deposit Insurance Corporation (FDIC). The NCUA Board also
took action on October 3 to eliminate the concept of “qualified beneficiary”
in determining share insurance coverage. The newly enacted rule serves
to maintain parity between insurance coverage offered by NCUA and the
FDIC. NCUA is working to update all related publications to reflect these
changes.

    STATUARY SHARE INSURANCE CHANGE: $250,000

    The new law became effective on October 3, 2008, and will remain in
    place through December 31, 2009. The law provides for an increase
    in the minimum NCUSIF coverage from $100,000 to $250,000 on
    member share accounts. This includes all account types, such as
    regular share, share draft, money market, and certificates of deposit.
    Individual Retirement Account and Keogh account coverage remains
    at up to $250,000 separate from other types of accounts owned.

    The increase in the minimum share insurance coverage to $250,000
    will not result in an increase to members‟ share insurance premium or
    operating fee. Changes will be made to the 5300 report for the
    December 2008 reporting cycle to address the new coverage level.




                                    12
OIG Semiannual Report                                      September 2008


    CHANGE IN NCUA RULES – “QUALIFIED BENEFICIARY”

    To maintain parity with FDIC insurance coverage, the NCUA Board
    approved a change to Part 745.4 of the NCUA Rules and Regulations
    eliminating the concept of “qualified beneficiary.” Beneficiaries are
    now defined as natural persons as well as charitable organizations
    and other non-profit entities recognized as such under the Internal
    Revenue Code of 1986. For members with revocable trust accounts
    totaling no more than $1,250,000, coverage will be determined
    without regard to the proportional beneficial interest of each
    beneficiary in the trust.

    Under the amended rules, a trust account owner with up to five
    different beneficiaries named in all of his or her revocable trust
    accounts at one NCUA-insured institution will be insured up to
    $250,000 per beneficiary. Revocable trust account owners with more
    than $1,250,000 and more than five different beneficiaries named in
    the trust(s) will be insured for the greater of either: $1,250,000 (5 X
    $250,000) or the aggregate amount of all the beneficiaries‟ interests
    in the trust(s), limited to $250,000 per beneficiary.

PRESIDENT BUSH SIGNS INTO LAW CONTINUING RESOLUTION WITH INCREASE
TO CENTRAL LIQUIDITY FACILITY LENDING LIMIT

On September 30, 2008, President Bush signed into law a government
funding resolution that also contains a borrowing cap increase for NCUA's
Central Liquidity Facility (CLF) for Fiscal Year 2009. The increased
borrowing ceiling was included in a continuing resolution to keep the
government funded into 2009. The CLF provision temporarily lifts an
arbitrary $1.5 billion lending cap placed on the NCUA's liquidity facility.
The increased cap will allow the CLF to lend up to approximately $41.5
billion to the credit union system.

PRESIDENT BUSH SIGNS INTO LAW “INSPECTOR GENERAL REFORM ACT OF
2008”

On October 14, 2008, President Bush signed into law the
“Inspector General Reform Act of 2008,” P.L. 110-409. The law was
designed to guarantee that a forum exists for Inspectors General (IGs) to
coordinate and share best practices; that IGs remain independent from
                                   13
OIG Semiannual Report                                          September 2008



inappropriate influence or pressure from the government agencies they
oversee; and that IG reports are easily accessible to the public.

The legislation was introduced last year in the Senate by Senators Claire
McCaskill (D-Missouri), Susan Collins (R-Maine), and Joe Lieberman (I-
Connecticut). Congressman Jim Cooper (D-Tennessee) introduced
similar legislation in the House of Representatives. After the Senate and
the House passed their respective bills earlier this year, legislators from
both chambers worked together to negotiate a compromise and agree on
identical language for the bill that was, ultimately, sent to the President for
signature.




                                     14
OIG Semiannual Report                                      September 2008




            OFFICE OF THE INSPECTOR GENERAL


The Office of the Inspector General was established at the NCUA in
1989 under the authority of the Inspector General Act of 1978, as
amended in 1988. The staff consists of the Inspector General, Counsel
to the Inspector General, Deputy Inspector General for Audits, Director of
Investigations, two Senior Auditors, Senior Information Technology
Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision
of, the NCUA Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations
of all NCUA programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic
operations as well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to
evaluate their impact on the economic and efficient administration of
agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant
findings and recommendations.




                                   15
OIG Semiannual Report        September 2008




                        16
OIG Semiannual Report                                     September 2008


                       AUDIT ACTIVITY

AUDIT REPORTS ISSUED

MAY 21, 2008
REVIEW OF FINANCIAL ACCOUNTING SOFTWARE ACQUISITION
METHODOLOGY – MEMORANDUM TO CFO

Because the NCUA plans to convert to a new agency accounting
system, the OIG looked at the agency‟s software acquisition
methodology and compared it to Federal agency acquisition best
practices. Our inquiry did not constitute an audit of the agency‟s
software acquisition methodologies. Rather, we provided a snapshot in
time, covering the period March/April 2008. The observations were
meant to provide NCUA best practices recommendations and assist the
Chief Financial Officer (CFO) in the acquisition of a new agency
accounting system.

On May 21, 2008, the Inspector General issued a memorandum to the
CFO. In summary, the memorandum stated that in reviewing the
agency‟s process to convert to a new accounting system software
acquisition methodology, we observed that the Office of the Chief
Financial Officer (OCFO) gathered a tremendous amount of software
acquisition background information regarding various acquisition policies
and procedures. However, the agency may want to consider developing
a comprehensive NCUA software acquisition methodology document that
includes best practices such as planning/needs assessment, and
acquisition process and outcome monitoring to guide it through the
acquisition process.

OIG-08-06 –June 4, 2008
REVIEW OF THE IMPLEMENTATION OF HOMELAND SECURITY PRESIDENTIAL
DIRECTIVE 12

We determined NCUA made progress towards issuing Personal Identity
Verification (PIV) credentials to its employees and contractor employees.
NCUA verified, initiated, or completed background investigations on its
employees.        In addition, NCUA began initiating background
investigations on its contractor employees. Furthermore, NCUA proofed
                                   17
OIG Semiannual Report                                       September 2008


and registered its existing employees and contractor employees starting
in August 2006. However, NCUA had not issued credentials to new or
existing employees and contractor employees as required, and the
credentials NCUA plans to issue do not meet HSPD-12 and FIPS 201
requirements. In addition, NCUA had not fulfilled other HSPD-12
requirements. Specifically, NCUA: (1) did not have an implementation
plan; (2) did not have an accredited and approved identity proofing and
registration process; (3) did not have an accredited and approved PIV
issuance and management process; and (4) has not included language
in contracts requiring compliance with HSPD-12 and FIPS 201.

We made eight recommendations where improvements could be made.
Management agreed with seven of the report‟s recommendations and has
plans or is in the process of taking corrective action to address those
recommendations. Management disagreed with one recommendation
related to Federal Bridge Certificate Authority because they made a
business decision that they do not believe the expenditure of agency
funds is justified at this time. The OIG understands the agency position.

OIG-08-07 – September 24, 2008
OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION
SECURITY PROGRAM 2008

This report contains a summary of our evaluation of the NCUA‟s
information security program presented in the Office of Management and
Budget (OMB) prescribed format.

The OIG issued two reports during the past year that reported on the
testing of the effectiveness of information security and internal controls:

      On September 24, 2008, the OIG issued a report containing an
      Independent Evaluation of the NCUA‟s Information Security
      Program - 2008. The content of the independent evaluation
      report supports the conclusions presented in this report.
      On February 28, 2008, the OIG issued the Financial Statement
      Audit Report for the year ended December 31, 2007. The
      purpose of this audit was to express an opinion on whether the
      financial statements were fairly presented. In addition, the
      internal control structure was reviewed and an evaluation of
      compliance with laws and regulations was performed as part of
      the audit. The result of this audit was an unqualified opinion,
                                    18
OIG Semiannual Report                                        September 2008


      stating that the financial statements were presented fairly.
      Although there were no material weaknesses identified during
      the review of the internal control structures pertinent to financial
      reporting, several recommendations were made relating to
      weaknesses in the financial and information security areas.

OIG-08-08 – September 24, 2008
INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION
ADMINISTRATION INFORMATION SECURITY PROGRAM 2008

The OIG engaged Grant Thornton LLP to independently evaluate its
information systems and security program and controls for compliance
with the Federal Information Security Management Act (FISMA), Title III
of the E-Government Act of 2002.

Grant Thornton evaluated NCUA‟s security program through interviews,
documentation reviews, technical configuration reviews, social
engineering testing, and sample testing. We evaluated NCUA against
standards and requirements for federal government agencies such as
those provided through FISMA, National Institute of Standards and
Technology (NIST) Special Publications (SPs), and OMB memoranda.
We conducted an exit conference with NCUA on July 23, 2008, to discuss
evaluation results.

The NCUA has worked to further strengthen its information technology
(IT) security program during Fiscal Year 2008. NCUA‟s accomplishments
during this period include:

            Implementing OMB guidance in managing Privacy and
            breach notifications.
            Ninety-seven percent of NCUA employees completed
            annual security awareness training.

   We identified six areas remaining from last year‟s FISMA
   evaluation that still need improvement:

            NCUA has not adequately established segregation of
            duty controls for its applications.
            NCUA has not completed E-Authentication risk
            assessments for its systems.
                                    19
OIG Semiannual Report                                    September 2008


          NCUA has not completed security controls testing for
          one of its FISMA systems.
          NCUA does not have a formal agency-wide security
          configuration guide.
          NCUA has not updated its employee enter/exit/change
          procedures.
          NCUA has not implemented continuing education
          requirements for its IT employees.

  In addition, we identified four new findings this year where NCUA
  could improve IT security controls:

          NCUA‟s System Software Change Procedures needs
          improvement.
          NCUA vulnerability management needs improvement.
          NCUA lacks a comprehensive contingency planning
          program for its FISMA systems.
          NCUA‟s Plans of Action and Milestones (POA&M)
          process needs improvement.




                                 20
OIG Semiannual Report                                      September 2008


AUDITS IN PROGRESS

HOME MORTGAGE DISCLOSURE ACT DATA ANALYSIS REVIEW

The Office of Inspector General is initiating a review of NCUA‟s Home
Mortgage Disclosure Act (HMDA) Process. This review is part of the
OIG‟s 2008 Performance Plan. The objective of our survey review is to
determine what NCUA is doing to ensure that HMDA data is used and
followed-up on to prevent instances of possible discriminatory lending
practices. One of the purposes of the HMDA is to assist financial
regulators in identifying possible discriminatory lending patterns and
enforcing compliance with anti-discriminatory statutes. Under NCUA‟s
Risk Focused Examination System, examiners exercise judgment in
developing variable scope procedures to determine the risk or existence
of discriminatory lending. Examiners are considering such factors as
HMDA data, credit union member complaints, prior examination concerns,
lending program complexity, and credit union field of membership when
determining what examination procedures will be performed. In addition,
separate fair lending examinations may be performed in credit unions by
NCUA consumer compliance subject matter examiners.


MATERIAL LOSS REVIEWS OF HURON RIVER, NORLARCO AND CAL STATE 9

The FCU Act provides that a review is required when the NCUSIF incurs
a material loss. For purposes of determining whether the NCUSIF has
incurred a material loss with respect to an insured credit union such that
the OIG must make a report, a loss is material if it exceeds the sum of
$10,000,000, and an amount equal to 10 percent of the total assets of the
credit union at the time at which the NCUA Board initiated assistance
under section 208, or was appointed liquidating agent.

On February 1, 2008, the OIG was notified by NCUA that the losses
incurred by two credit unions (Huron River Area Credit Union and
Norlarco) had exceeded the statutory requirements, triggering a material
loss review by the OIG. On August 13, 2008, the OIG was notified by
NCUA that Cal State 9 credit union losses had exceeded the statutory
requirements, also triggering a material loss review by the OIG. The
scope of these audits will include an analysis of the credit union‟s
transactions and activities to determine the causes of failure and a review
of the state and/or NCUA supervision of the credit union. The review will
                                   21
OIG Semiannual Report                                     September 2008




be performed in accordance with Government Auditing Standards for
performance audits. Our objectives are to determine (1) the causes of the
credit union‟s failure and resulting material loss to the share insurance
fund; and (2) assess the NCUA‟s supervision of the institution, including
implementation of the Prompt Corrective Action requirements of the FCU
Act.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE ACTION
HAS NOT BEEN COMPLETED

As of September 30, 2008, there were no significant audit
recommendations on reports issued over six months ago that have not
been either fully implemented or are in the process of implementation.




                                  22
OIG Semiannual Report                                        September 2008


                  INVESTIGATIVE ACTIVITY

In accordance with professional standards and guidelines established by
the Department of Justice, the OIG conducts investigations of criminal,
civil, and administrative wrongdoing involving agency programs and
personnel. Our investigative program focuses on activities designed to
promote economy, effectiveness, and efficiency, as well as fighting fraud,
waste, and abuse in agency programs and operations. In addition to our
efforts to deter misconduct and promote integrity awareness among
agency employees, we investigate referrals and direct reports of
employee misconduct. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the
activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials
that involve NCUA employee program responsibilities. We examine
these complaints to determine whether there is any indication of NCUA
employee wrongdoing or misconduct. If not, we refer the complaint to
the appropriate regional office for response, or close the matter if contact
with the regional office indicates that the complaint has already been
appropriately handled.


OIG HOTLINE CONTACTS

The OIG maintains a toll free hotline to enable employees and citizens to
call with information about waste, fraud, abuse or mismanagement
involving agency programs or operations. We also receive complaints
through an off-site post office box, from electronic mail, and facsimile
messages. All information received from any of these sources is referred
to as a hotline contact. The OIG hotline program is handled by our
Office Manager, under the direction of our Director of Investigations. The
majority of hotline contacts are from consumers seeking help with a
problem with a credit union. These contacts are referred to the
appropriate NCUA regional offices for assistance. During this reporting
period, we referred 178 consumer complaints to regional offices. The
OIG referred six allegations of potential fraud at credit unions to the
Office of General Counsel.

                                    23
OIG Semiannual Report                                        September 2008



INVESTIGATIONS


ABUSE OF AUTHORITY

During this reporting period, the OIG received an allegation that an
NCUA examiner had abused his authority and engaged in an
inappropriate relationship with a credit union employee. Specifically, the
complaint alleged that the employee misused his government position to
access private financial data about his neighbors. Moreover, the
allegation also included information the employee threatened his ex-wife
by using his influence to place a judgment on her credit report. The OIG
initiated an investigation and concluded the examiner violated the
Standards of Ethical Conduct for Employees of the Executive Branch by
using his official position for private gain and using nonpublic information
for private gain. The matter was referred to management for appropriate
disciplinary action.


VIOLATION OF OPM POLICIES

The OIG developed information that the agency violated Office of
Personnel Management (OPM) regulations when it issued a cash award
directly to an employee detailed to NCUA from another government
agency. Based on our review of the relevant materials and the
circumstances surrounding the issue, the OIG determined the agency
knowingly violated OPM administrative regulations governing cash
awards. While OPM assigns no specific penalties for violating its
procedures, the OIG advised the agency of its potential vulnerability to
criticism from OPM if the issue were brought to light during an OPM
review of the agency‟s compliance with administrative policies and
regulations. The OIG briefed management on its findings and provided a
copy of the applicable regulation to ensure future compliance.


U.S. SMALL BUSINESS ADMINISTRATION REFERRAL

The U.S. Small Business Administration (SBA) Office of the National
Ombudsman referred to the OIG an allegation concerning two examiners
who allegedly abused their authority and engaged in retaliatory practices
                                    24
OIG Semiannual Report                                       September 2008



against a credit union after questions were raised with regard to an
examination. The OIG conducted a preliminary inquiry into the matter
and did not develop substantive information to warrant further
investigation.


PROACTIVE INITIATIVES

During this reporting period, the OIG launched several proactive
initiatives designed to identify areas of potential vulnerability in agency
programs and operations. These areas involved the agency‟s gift card,
purchase card, and travel card programs. The OIG worked with the
NCUA Office of the Chief Financial Officer (OCFO) and the Office of
Human Resources (OHR) in these efforts. These reviews resulted in the
OIG issuing recommendations to lessen the potential for waste, fraud
and abuse. The travel card program review also identified an employee
who used his government contractor-issued agency travel card to make
thousands of dollars of unauthorized purchases unrelated to official
agency business. The OIG referred the matter to management for
appropriate disciplinary action which resulted in a three day suspension
without pay.




                                    25
OIG Semiannual Report                                           September 2008



             LEGISLATIVE AND REGULATORY
                       REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General
to review existing and proposed legislation and regulations relating to the
programs and operations of the NCUA and to make recommendations
concerning their impact. Moreover, we routinely review proposed
agency instructions and other policy guidance, in order to make
recommendations concerning economy and efficiency in the
administration of NCUA programs and operations and the prevention and
detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 20 items, including
proposed and final legislation and regulations, comments to proposed
regulations, and agency Interpretive Rulings and Policy Statements
(IRPS). We issued formal comments on one legislative item, H.R. 5683.


     SUMMARY OF STATUTES AND REGULATIONS REVIEWED
      Legislation                                     Title
         H.R. 1424             “Emergency Economic Stabilization Act of 2008”
      H.R. 928, S. 2324        “Inspector General Reform Act of 2008”
       (P.L. 110-409)
         H.R. 1424             “Emergency Economic Stabilization Act of 2008”
         H.R. 5683             “Government Accountability Office Act of 2008”
           S. 789              “Government Credit Card Abuse Prevention Act
                                of 2008”
          H.R. 1395            “Government Credit Card Abuse Prevention Act
                           2    of 2007”
      S. 3077, H.R. 6411       “Strengthening Transparency and Accountability
                                in Federal Spending Act of 2008”
        S. (Staff Draft)       “Federal Information Infrastructure Response Act
                                of 2008 (the FIIRE Act of 2008)”
           S. 2583             “Improper Payments Elimination and Recovery Act
                                of 2008”




                                      26
OIG Semiannual Report                                       September 2008



 Regulations/Rulings                             Title
        H.R. 6639         “Federal Agency Performance Review And
                           Efficiency Act”
        H.R. 6575         “Over-Classification Reduction Act”

   12 CFR Part 706        Joint Proposed Rulemaking Regarding Unfair
                          or Deceptive Acts of Practices
   12 CFR Part 721        Final Rule: “Incidental Powers”
   12 CFR Part 792        Final Rule: “Revisions for the Freedom Of
                          Information Act and Privacy Act Regulations”
12 CFR Part 701 and 705   Final Rule: “The Low Income Definition”
    12 CFR Part 740       Final Rule: “The Official Advertising Statement”
    12 CFR Part 723       ANPR: “Member Business Loans (MBL)”
   5 CFR Parts 2637       Final Rule: “Post Employment Conflict Of
       and 2641           Interest Restrictions”
      IRPS 08-01          Final Interpretative Ruling and Policy Statement
                          08-01: “Guidance Regarding Prohibitions Imposed
                          by Section 205(d) of the Federal Credit Union Act”
      IRPS 08-02          Proposed Interpretative Ruling and Policy
                          Statement 08-02: “Updating and Clarifying Criteria
                          for Approval to Serve An „Underserved Area‟”




                                  27
OIG Semiannual Report                                                   September 2008



                                       TABLE I
                  INSPECTOR GENERAL ISSUED REPORTS
                       WITH QUESTIONED COSTS
                                                    Number of   Questioned Unsupported
                                                     Reports      Costs       Costs


      For which no management decision had
 A.
      been made by the start of the reporting
      period.                                          0           $0           $0

 B.   Which were issued during the reporting
      period.                                          0            0           0
      Subtotals (A + B)                                0            0

 C.   For which management decision was made
      during the reporting period.                     0            0           0


       (i) Dollar value of disallowed costs
                                                       0            0           0

      (ii) Dollar value of costs not allowed
                                                       0            0           0

      For which no management decision has
 D.
      been made by the end of the reporting
      period.                                          0            0           0

      Reports for which no management
 E.
      decision was made within six months
      of issuance.                                     0            0           0


Questioned costs are those costs the OIG has questioned because of
alleged violations of laws, regulations, contracts, or other agreements;
findings which at the time of the audit are not supported by adequate
documentation; or the expenditure for the intended purpose is
unnecessary or unreasonable.
Unsupported costs (included in "Questioned Costs") are those costs the
OIG has questioned because of the lack of adequate documentation at
the time of the audit.




                                               28
OIG Semiannual Report                                                  September 2008




                                   TABLE II
        INSPECTOR GENERAL ISSUED REPORTS WITH
    RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                           Number of      Dollar
                                                            Reports       Value


         For which no management decision had been
    A.                                                        0             $0
         made by the start of the reporting period.


    B.   Which were issued during the reporting period.       0             0


                        Subtotals (A + B)                     0             0


         For which management decision was made
    C.                                                        0             0
         during the reporting period.


         (i) Dollar value of recommendations agreed to
             by management.                                  N/A           N/A


         (ii) Dollar value of recommendations not agreed
              to by management.                              N/A           N/A


         For which no management decision was made
    D.                                                        0             0
         by the end of the reporting period.


         For which no management decision was made
    E.                                                        0             0
         within six months of issuance.


Recommendations that "Funds to be Put to Better Use" are those OIG
recommendations that funds could be used more efficiently if
management took actions to reduce outlays, de-obligate funds from
programs/operations, avoid unnecessary expenditures noted in pre-
award reviews of contracts, or any other specifically identified savings.




                                        29
OIG Semiannual Report                                               September 2008




                                  TABLE III
                      SUMMARY OF OIG ACTIVITY
                  APRIL 1 THROUGH SEPTEMBER 30, 2008

                    PART I – AUDIT REPORTS ISSUED
   Report                                                             Date
   Number                           Title                            Issued
             Review of Financial Accounting Software
     N/A     Acquisition Memorandum                                05/21/2008


  OIG-08-06 Review of the Implementation of Homeland               06/04/2008
            Security Directive 12

  OIG-08-07 OIG Report to OMB on the National Credit Union         09/24/2008
         A Administration Security Program 2008

  OIG-08-08 Independent Evaluation of the National Credit Union    09/24/2008
         In Administration Information Security Program 2008
        PART II – AUDITS IN PROGRESS          (as of September 30, 2008)
             Home Mortgage Disclosure Act Data Analysis review
             Material Loss Reviews of Huron River, Norlarco, and Cal State 9




                                       30
OIG Semiannual Report                                                  September 2008




              INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                           PAGE REF
   4(a)(2)               Review of Legislation and Regulations              26
   5(a)(1)           Significant Problems, Abuses, or Deficiencies          17
                     Relating to the administration of programs and
                   Operations disclosed during the reporting period.
   5(a)(3)           Recommendations with Respect to Significant            17
                           Problems, Abuses, or Deficiencies.
   5(a)(3)            Significant Recommendations Described in              22
                        Previous Semiannual Reports on Which
                      Corrective Action Has Not Been Completed.
   5(a)(4)           Summary of Matters Referred to Prosecution           None
                       Authorities and Prosecutions, Which Have
                                         Resulted.
   5(a)(5)          Summary of Each Report to the Board Detailing         None
                     Cases Where Access to All Records Was Not
                     Provided or Where Information Was Refused.
   5(a)(6)               List of Audit Reports Issued During the            30
                                     Reporting Period.
   5(a)(7)            Summary of Particularly Significant Reports.          17
   5(a)(8)              Statistical Tables on Audit Reports With            28
                                    Questioned Costs.
   5(a)(9)              Statistical Tables on Audit Reports With            29
                       Recommendations That Funds Be Put To
                                        Better Use.
   5(a)(10)       Summary of Each Audit Report Issued Before the          None
               Start Of the Reporting Period for Which No Management
                Decision Has Been Made by the End of the Reporting
                                          Period.
   5(a)(11)           Description and Explanation of Reasons for          None
                    any Significant Revised Management Decision
                           Made During the Reporting Period.
   5(a)(12)        Information Concerning Significant Management          None
                    Decisions With Which the Inspector General is
                                     in Disagreement.




                                        31
OIG Semiannual Report        September 2008




                        32
